                    Office of Inspector General
                   Corporation for National and
                            Community Service




    Semiannual Report
      to Congress
April 1, 2005 - September 30, 2005
      Fiscal Year 2005 Semiannual Report No. 2




  1201 New York Avenue, NW, Suite 830
         Washington, DC 20525
       Telephone (202) 606-9390
        Facsimile (202) 606-9397
         Hotline (800) 452-8210
       Website: www.cncsig.gov
                                     KxfizkAL
                                     COMMUNITY
                                     SERVICE-


October 3 1,2005


I am pleased to present our Semiannual Report to Congress and share with you the results of the
Office of Inspector General's (OIG) audits, investigations and evaluations for the period April 1
to September 30,2005.

During this period, the OIG has taken a proactive stance in its effort to detect and prevent waste,
fraud and abuse of taxpayer dollars in Corporation programs and operations. Rather than merely
wait for our audit, investigative and evaluation reports to be issued, we have given Corporation
management early and ongoing advisories and recommendations on key issues. They range from
criminal background checks for volunteers and recurring negative audit findings, as reported on
by our Evaluation Section, to alleged program fraud and violations of policies.

Accordingly, this report contains a new section titled "Proactive Initiatives." It contains details
on such efforts, as well as information on our enhanced education and outreach initiatives.

Our Audit Section issued audit reports on six State commissions and two National Direct
grantees, and also began work on the Corporation's Fiscal Year 2005 Financial Statements and
the annual evaluation of Corporation computer systems required by the Federal Information
Security Management Act. Also during this reporting period, audits commenced on eight
additional State commissions, as well as several National Direct grantees, Corporation training
and technical assistance providers and Senior Corps grantees.

Our Investigations Sections handled a large and varied caseload during this reporting period,
including allegations of government credit card fraud, misapplication of program funds, illegal
diversions of education awards and contractor abuses. As a result of these efforts, our
investigators recovered more than $180,000 in taxpayer funds and identified more than $1.6
million in potential recoveries. Their findings also led to a number of criminal convictions and
assisted in Corporation officials' decisions to debar individuals who had betrayed the public's
trust.

Overall, this report reflects the varied and innovative efforts undertaken by the OIG as it
continues to work with the Corporation to maximize the impact of every Federal tax dollar
invested in National Service.

Sincerely,



Carol Bates
Acting Inspector General

                                                 *
                       1201 New York Avenue, NW Suite 830, Washmgton, DC 20525
                                       *                      *
                          202-606-9390 Hotline: 800-452-8210 www.cncsia.eov
                                                                                          Freedom Corps
                           Senior Corps * AmeriCorps * Learn and Serve America             Make a D i b . W n h r
                                                                                                    Table Of Contents


Executive Summary................................................................................................. 1
      Proactive Initiatives ..................................................................................................................... 1
      Audit Section ................................................................................................................................ 1
      Investigations Section................................................................................................................. 1
      Evaluation Section....................................................................................................................... 2
      Fiscal Year 2005 Performance Information ............................................................................... 2
      About The Office Of Inspector General ..................................................................................... 2

Proactive Initiatives ................................................................................................. 5
      Evaluation Report ........................................................................................................................ 7
      Management Advisories.............................................................................................................. 7
      Other Communications ............................................................................................................... 8
      Outreach and Education ............................................................................................................. 8

Audit Section.......................................................................................................... 11
      Grant Management and Oversight ........................................................................................... 13
      State Commission Full-Scope Audits...................................................................................... 13
      AmeriCorps Subgrantee Full-Scope Audits............................................................................ 15
      AmeriCorps National Direct Grantee Full-Scope Audits ....................................................... 16
      Audit Resolution ........................................................................................................................ 16
      Proposed Management Decisions ........................................................................................... 17
      Notices of Final Action .............................................................................................................. 17

Investigations Section........................................................................................... 21
      Summary of Cases..................................................................................................................... 23

Review of Legislation and Regulations ............................................................... 33
      AmeriCorps Program Rules Finalized ..................................................................................... 35
      Program Fraud Civil Remedies Act.......................................................................................... 35

Statistical and Summary Tables ........................................................................... 37
      I.       Inspector General Act Reporting Requirements.......................................................... 39
      II.     Reports With Questioned Costs ..................................................................................... 40
      III.    Reports With Recommendations That Funds Be Put To Better Use .......................... 41
      IV.     Summary of Audits With Overdue Management Decisions......................................... 42
      V.      Reports Described in Prior Semiannual Reports Without Final Action...................... 43

Fiscal Year 2005 Performance Information ......................................................... 45
                                                                  Executive Summary


 Executive Summary
Proactive Initiatives
 Led by our Evaluation Section, the OIG has undertaken a number of proactive initiatives during this
 reporting period to alert and advise Corporation management on issues and potential problems. An
 Evaluation report mined data from 25 previous OIG grantee audits to identify recurring issues. The
 report identified inadequate financial controls and member records as the prime reasons for the
 questioning of nearly $32 million of costs. The report also offered recommendations to eliminate
 these recurring issues. The OIG issued management advisories on the need for improved guidance
 on criminal background checks for volunteers and on National Service Trust and education award
 issues. Other communications with Corporation management included timely advisories on
 AmeriCorps Living Allowance issues and irregularities that had been identified in an ongoing
 subgrantee audit. We also increased our outreach by providing Fraud Awareness Briefings to
 Corporation employees and stakeholders and launched the publication of “For Your Inspection (FYI),”
 a quarterly newsletter that highlights the OIG’s work and focuses on key fraud issues.


Audit Section
 During this reporting period, the OIG Audit Section conducted audits and other work to improve the
 operations of the Corporation and issued nine reports. A summary for each report issued is included
 in this semiannual report.

 Work started or ongoing during this reporting period includes:

     •   Fiscal Year 2005 Corporation Financial Statement Audit and related reports
     •   Fiscal Year 2005 Evaluation required by the Federal Information Security Management Act
     •   Audits of the Puerto Rico, New York, Massachusetts, Illinois, Florida, Tennessee, Virginia
         and New Mexico Commissions
     •   Audits of Youthbuild USA, City Year, Habitat for Humanity and Education Works, all
         AmeriCorps National Direct grantees
     •   Follow-up Review of the Corporation’s Alternative Personnel System
     •   Audit of Training and Technical Assistance Cooperative Agreements awarded to Aguirre
         International, Inc., CHP International, Inc., ETR Associates and the Northwest Regional
         Educational Laboratory
     •   Audit of Senior Corps grants awarded to the Louisville Metro Community Action Partnership,
         Mid-Willamette Valley Foster Grandparents Program, Kansas City Foster Grandparents
         Program, Kentucky Department of Health and Mental Health Services and Kansas City Big
         Brothers/Big Sisters Foster Grandparents Program


Investigations Section
 The OIG Investigations Section continues to investigate allegations of fraud, waste, and abuse of
 taxpayer dollars in Corporation programs and operations. During this reporting period, the
 Investigations Section received and processed 33 Hotline contacts, opened 34 investigative actions,
 and closed 30 actions. Twelve matters were referred to the U.S. Department of Justice for
 prosecution, and sixteen matters were referred to Corporation management for its action. The OIG’s
 investigators were responsible for recovering $181,297.41 in Corporation funds. Based on
 information presented to the Corporation, management debarred two individuals. In addition, ongoing
 OIG investigations have identified $1.68 million in potential recoveries.


 April 1, 2005 – September 30, 2005                                                           1
Executive Summary

Evaluation Section
 During this reporting period, the Evaluation Section completed a study of OIG Incurred-Cost Audit
 Reports to identify overall trends in compliance and other issues among audited Corporation
 AmeriCorps State and National programs. The study found that many questioned costs were related
 to missing documentation for administrative expenses, staff time distribution, and member eligibility
 records.

 The Evaluations Section also began work on a study that will examine the Corporation’s compliance
 with Executive Order No. 13279, and requirements for non-discrimination and prohibited activities for
 faith-based programs. This study will include, but is not limited to, activities funded under AmeriCorps
 State and National, VISTA, NCCC, Senior Corps, and the Learn and Serve program.


Fiscal Year 2005 Performance Information
 The final section of this report summarizes the Office of Inspector General’s accomplishments and
 performance measures in support of OIG strategic goals.


About The Office Of Inspector General
 In 1993, Congress created the Corporation for National and Community Service, along with this
 Office of Inspector General, in the National and Community Service Trust Act (42 U.S.C. §§ 12501-
 681 (2004)). Like all Federal OIG operations, our office is independent of the agency it oversees.
 Led by a presidential appointee, we audit, investigate, and evaluate the Corporation’s programs,
 including AmeriCorps, Volunteers In Service to America (VISTA), the National Civilian Community
 Corps, Learn and Serve America, and Senior Corps.

 The Office of Inspector General’s team of investigators, evaluators, and auditors examine the
 Corporation’s operations. We also examine State and National community service programs that
 receive and distribute the majority of Corporation funds, as well as local recipients of Federal funds.

 Based on the results of our audits, investigations, and reviews, the OIG recommends Corporation
 policies to promote economy and efficiency. We also strive to prevent and detect fraud and abuse of
 taxpayer dollars that have been invested in Corporation programs.

 This semiannual report, as required by the Inspector General Act of 1978, details our work for the
 final six months of fiscal year 2005. It is being transmitted to the Chief Executive Officer of the
 Corporation. It will also be made available to the public.

 All of our work is conducted in strict adherence to the Privacy Act and the Freedom of Information
 Act. Our efforts are often aided by information supplied via the OIG Hotline (800-452-8210). The
 Hotline allows Corporation employees, grantees, program beneficiaries, and others to report
 concerns and suspected fraud.

 For more information on the OIG and its work, please visit our Internet website: www.cncsig.gov, or
 telephone us at (202) 606-9390.




 2                                                          April 1, 2005 – September 30, 2005
             CORPORATION FOR NATIONAL AND
                  COMMUNITY SERVICE

     OFFICE OF INSPECTOR GENERAL

                               Hotline


                                             We Want You to
                                              Report Fraud,
                                            Waste and Abuse!



                        ♦   All information is confidential.

                        ♦   You may remain anonymous.


                1-800-452-8210
Contact us by e-mail:                                    Visit our web page:
hotline@cncsoig.gov                                       www.cncsig.gov


                                    Or write:

                              OIG HOTLINE
    Corporation for National and Community Service
         1201 New York Avenue NW, Suite 830
                 Washington, DC 20525
                                      Proactive Initiatives
                   In its ongoing effort to prevent and detect fraud, waste
                   and abuse in a timely manner, the OIG has taken a
                   proactive stance to alert and inform Corporation
                   management and its national service partners of
                   problems and potential pitfalls. Our initiatives include
                   analysis and reports by our Evaluation Section,
                   management advisories and other communication on
                   current issues, and outreach to all Corporation
                   stakeholders through our information and education
                   programs.




April 1, 2005 – September 30, 2005                                     5
                                                                    Proactive Initiatives

Evaluation Report
 Compilation and Analysis of Incurred-Cost Audit Findings (Report 05-01E): This report, issued
 in July by the OIG Evaluation Section, identified recurring issues raised in our AmeriCorps audits.
 The study mined findings and other data from 25 incurred-cost audit reports issued by the OIG
 between October 1, 2001, and March 31, 2005. The audits covered a total of $287 million in Federal
 funds granted by the Corporation to State commissions and other entities. Of that total, the OIG
 auditors questioned costs of nearly $32 million, or 11 percent of the granted funds.

 As a result of the audit resolution process, the Corporation disallowed $2.4 million, or 8.8 percent, of
 the total questioned costs.

 Inadequate grantee and subgrantee financial controls and accounting systems, and a lack of
 supporting documentation, especially in the area of member records that verify members’ eligibility for
 AmeriCorps participation and Education Awards, were among the oft-cited grounds for questioned
 costs in the 25 audits. Specifically, OIG auditors questioned $15 million in costs due to missing
 support documentation related to the fiscal administration of grants. Another $18 million in living
 allowances and education awards costs were questioned due to missing eligibility documents.

 The report recommended that the Corporation improve its monitoring and management of grants and
 that it provide additional technical and training assistance to grantees and subgrantees. At an exit
 conference, Corporation management characterized the report’s findings as very valuable and
 requested that the OIG continue tracking and reporting on recurring audit issues.


Management Advisories
 Criminal Background Checks: The OIG has engaged in an ongoing dialogue with Corporation
 management on the lack of a firm policy and clear guidance for grantees and subgrantees on the
 issue of criminal background checks for members and volunteers who have substantial direct contact
 with children, the elderly and the handicapped. Our audits find too many instances in which
 AmeriCorps members serving youth did not receive criminal background checks.

 We recommended that the Corporation strengthen its provisions and guidance in the area of criminal
 background checks by defining or providing guidance on the meaning of “substantial direct contact,”
 requiring documentation of program officials’ approval of enrollment and placement of members
 found to have a criminal background, expanding checking procedures to include all applicable
 Federal, State, county and local law enforcement and judicial sources, and requiring criminal
 background checks for all senior volunteers who work out of sight with program beneficiaries or on a
 one-on-one basis.

 To assist in this effort, the OIG published an article on the dangers of allowing sexual predators and
 abusers into volunteer programs, as well as a list of training resources. This information is featured
 on the OIG website (www.cncsig.gov) and in our “For Your Inspection” newsletter. The Corporation
 provided links to this information in its electronic AmeriCorps News and is studying ways to improve
 its criminal background check policies and grant provisions.

 National Service Trust Internal Controls: The OIG Investigations Section conducted a limited-
 scope review of the Corporation’s controls and verification process for payments to non-education
 institutions (banks and other commercial lenders) receiving education award payments. The OIG
 found that the Corporation does not have a Standard Operating Procedure in place for outlining the
 verification process for payments to non-education institution loan holders. The OIG also determined
 that delinquent education award accounts were not being processed in accordance with Corporation
 policy and that the Corporation’s National Service Trust Fund Negative Award Balance Report had
 outstanding balances dating as far back as 1995. The results of the review were provided to the

 April 1, 2005 – September 30, 2005                                                                7
Proactive Initiatives

 Corporation in a management advisory. The final results will be reported in a subsequent semiannual
 report.

 Copyright Issues: Following an OIG investigation, we alerted Corporation management to a
 potential liability due to copyright infringement and possible theft of intellectual property. It involved a
 Corporation official who had been forwarding to colleagues, via e-mail, a subscription-only newsletter
 on Federal budget issues. The OIG contacted the newsletter’s publisher, who said distribution was
 limited to paying subscribers. The practice was halted and the official has since left the Corporation.


Other Communications
 Living Allowances: Based on audit findings, the OIG advised the Corporation that programs were
 paying “bonus” or “lump sum” living allowances to AmeriCorps members who had completed their
 service terms in less than the usual 12-month format. We opined that the practice, revealed in a
 number of subsequent OIG audits, is in violation of the AmeriCorps provisions. According to those
 provisions, living allowances are designated to support members while they are in active service and,
 as such, are not an entitlement. Corporation management has informed the OIG that, starting with
 Program Year 2005-2006, AmeriCorps grant provisions have been revised to specifically prohibit
 lump-sum living allowance payments at the beginning or end of a member’s service.

 Timesheet and Financial Irregularities: In August 2005, the OIG alerted the Corporation to
 indications of irregularities found during our audit of the New York Commission and its YMCA of
 Greater New York School Success AmeriCorps program. Our audit has disclosed serious time sheet
 irregularities, such as time reported in the Web-Based Reporting System greater than the sum of the
 time sheets. We also cited a YMCA program memo that authorized “double hours” for members
 because their program “had a late start up.” We recommended that the Corporation delay new grants
 to the YMCA pending completion of our audit. That funding has been put on hold.

 E-mail and other Records Retention Issues: Over the course of several investigations, the OIG
 determined that the Corporation has no established policy for records retention and management,
 such as an instruction to employees on what is a “record” or how and where official records should be
 maintained, as required by 31 U.S.C. § 3101-02. In addition, it became evident that the Corporation
 lacks the capability to retain or retrieve e-mail communications that qualify as a government record,
 as required by 36 C.F.R. § 1234.26, Standards for Managing Electronic Mail Records. This
 regulation states that agencies’ policies should account for e-mail records, either by creating an
 electronic recordkeeping system according to specified criteria, or, “[i]f the electronic mail system is
 not designed to be a recordkeeping system, agencies shall instruct staff on how to copy Federal
 records from the electronic mail system to a record keeping system." 36 C.F.R. § 1234.24(b)(2).
 Also, "[a]gencies that maintain paper files as their recordkeeping systems shall print their electronic
 mail records and the related transmission and receipt data specified by the agency," 36 C.F.R.
 Section 1234(d). The OIG has repeatedly brought this matter to the attention of Corporation
 management over the course of the past two semiannual report periods. We will continue to monitor
 the situation and will report on any Corporation action in a subsequent semiannual report.


Outreach and Education
 Fraud Awareness Briefings: The OIG Investigations Section continues to provide Corporation,
 grantee and subgrantee employees, and volunteers with information on how to identify, prevent and
 report waste, fraud, and abuse of taxpayer-funded resources. Investigators regularly provide these
 multimedia briefings as part of their field assignments and also provide them to meetings and training
 sessions conducted by Corporation grantees and other national service stakeholders. Topics include
 the role and mission of the OIG, common types of program fraud, and how to detect and report
 suspected abuses. The program also raises the visibility of the OIG among program staff and
 national service members. During this reporting period, OIG investigators conducted 16 Fraud


 8                                                             April 1, 2005 – September 30, 2005
                                                                   Proactive Initiatives

Awareness Briefings, including sessions at the National Conference in Washington, DC. The
briefings involved more than 275 program members, as well as staff members of grantees, State
commissions and the Corporation.

“For Your Inspection (FYI)”: During this reporting period, we launched publication of FYI, a
quarterly newsletter that highlights the mission and work of the OIG and offers in-depth information on
key issues facing the Corporation and its grantees. During this reporting period, FYI featured articles
on government credit card fraud and abuse and ethics rules for Corporation employees. FYI is widely
distributed, in print and electronically, to Corporation employees, grantees, volunteers and other
stakeholders. The current and all previous issues of FYI are available on the OIG web site at
www.cncsig.gov.




April 1, 2005 – September 30, 2005                                                               9
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action or information.




April 1, 2005 – September 30, 2005                                     11
                                                                              Audit Section


Grant Management and Oversight
 The Corporation awards grants to State and local governments, State commissions, institutions of
 higher education, and other not-for-profit organizations. Grantees are required to expend funds only
 for allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic
 and financial compliance with the terms of their grant agreements. The Corporation is responsible for
 ensuring that grantees comply with applicable laws and regulations related to the administration of
 grant awards.

 The Audit Section conducts audits of Corporation grantees to assess whether reported costs are
 allowable under Federal regulations and whether grantees are complying with the terms and
 conditions of their awards. Our reports on Corporation grants also include recommendations for
 correcting deficiencies. Typically, the recommendations call for grantees to reimburse questioned
 costs, establish and implement policies and procedures to prevent future instances of noncompliance,
 and improve internal controls. We also make recommendations for more effective Corporation
 oversight and improvements in grants management operations.

 During this reporting period, the OIG issued reports on six State commissions, one AmeriCorps
 subgrantee and two AmeriCorps National Direct grantees.


State Commission Full-Scope Audits
 Audit Report 05-15 - Audit of Corporation for National and Community Service Grants
 Awarded to the Nebraska Volunteer Service Commission

 Kearney & Company performed an incurred-cost audit of Corporation grants awarded to the
 Nebraska Volunteer Service Commission (Commission).

 For the grants audited, the Commission claimed costs of $2,984,535, of which the auditors
 questioned $60,450 of costs as unallowable. Overall, the auditors questioned approximately 2
 percent of claimed costs. The auditors also questioned $17,875 of matching costs. The auditors also
 noted instances of noncompliance with provisions of Federal laws, regulations and grant award
 provisions. The auditors concluded that the Consolidated Schedule of Award Costs presents fairly
 the costs claimed by the Commission, except for the questioned costs identified in the report, and the
 effects of any adjustments.

 The Commission agreed with the recommendations and has begun taking corrective actions.

 Audit Report 05-10 - Audit of Corporation for National and Community Service Grants
 Awarded to the Nevada Commission for National and Community Service

 Cotton & Company LLP performed an incurred-cost audit of Corporation grants awarded to the
 Nevada Commission for National and Community Service (Commission).

 For the grants audited, the Commission claimed costs of $3,336,952, of which the auditors
 questioned $78,534 as unallowable and $56,619 of education awards. Overall, the auditors
 questioned approximately 2.4 percent of claimed costs. The auditors also noted instances of
 noncompliance with provisions of Federal laws, regulations and grant award provisions. In addition,
 the auditors noted two internal control findings that are considered material weaknesses.

 The Commission generally agreed with the audit report’s conclusions and it has addressed many of
 the identified weaknesses. However, it disagreed with the auditors’ classification of two internal
 control findings as material weaknesses, citing its relatively small amount of questioned costs. These

 April 1, 2005 – September 30, 2005                                                             13
Audit Section

 comments and the Commission’s corrective actions will be reviewed by the Corporation as part of the
 audit resolution process.

 Audit Report 05-17 - Audit of Corporation for National and Community Service Grants
 Awarded to the Louisiana Serve Commission

 Cotton & Company LLP performed an incurred-cost audit of Corporation grants awarded to the
 Louisiana Serve Commission (Commission).

 For the grants audited, the Commission claimed costs of $5,679,673, of which the auditors
 questioned $426,611 as unallowable and $30,889 of education awards. Overall, the questioned
 costs amounted to approximately 7.5 percent of claimed costs. The auditors also questioned claimed
 match costs as unreasonable and noted instances of noncompliance with provisions of Federal laws,
 regulations and grant award provisions. In addition, the auditors noted three internal control findings
 that are considered to be material weaknesses.

 The Commission disagreed with the $4,845,375 of questioned costs for the value of television public
 service announcements (PSAs) aired in Louisiana that it claimed as administrative match. It believed
 the Corporation had provided approval to charge this expense as administrative match. We disagree
 because the Commission did not receive specific approval for the full amount of the claimed cost.
 Also, the Commission did not include PSA costs in its grant application budget; and the costs are not
 ordinary and necessary for the operation or the performance of the Federal award, in accordance with
 OMB Circular A-87. The Commission concedes that questioned labor and consultant costs did not
 have the required supporting documentation, but believes the costs are allowable. The Commission
 generally agreed with the remaining auditors’ conclusions and it has addressed many of the identified
 weaknesses.

 Audit Report 05-21 - Audit of Corporation for National and Community Service Grants
 Awarded to the Iowa Volunteer Service Commission

 Cotton & Company LLP performed an incurred-cost audit of Corporation grants awarded to the Iowa
 Volunteer Service Commission (Commission).

 For the grants audited, the Commission claimed costs of $4,242,581, of which the auditors
 questioned $82,396 of Federal costs and $49,214 of education awards. Overall, the costs questioned
 amounted to approximately 2 percent of claimed costs. The auditors also noted instances of
 noncompliance with provisions of Federal laws, regulations and grant award provisions and six
 internal control findings, two of which are considered material weaknesses.

 The Commission has made changes to its policies, procedures and practices in response to the
 findings.

 Audit Report 05-24 - Audit of Corporation for National and Community Service Grants
 Awarded to the California Governor’s Office on Services and Volunteerism (GO SERV)

 Conrad and Associates, L.L.P. performed an incurred-cost audit of grants awarded to the California
 Governor’s Office on Services and Volunteerism (GO SERV).

 For the grants audited, GO SERV claimed costs of $72,023,330, of which the auditors questioned
 $1,041,476 as unallowable and $414,260 of education awards. Overall, the auditors questioned
 approximately 1.4 percent of claimed costs. The auditors also noted instances of noncompliance with
 provisions of Federal laws, regulations and grant award provisions, some of which are considered
 material weaknesses.




 14                                                         April 1, 2005 – September 30, 2005
                                                                              Audit Section

 The Commission’s response to the draft report acknowledged appreciation for the recommendations
 made by the auditors to improve certain areas of operations. It also asserted that several of the
 auditors’ conclusions were unfounded. These differences will be resolved with the Corporation during
 the audit resolution phase.

 Audit Report 05-18 - Agreed-Upon Procedures Review of Corporation for National and
 Community Service Grants Awarded to the Wyoming Commission for National and
 Community Service

 Cotton & Company LLP performed an agreed-upon procedures review of Corporation National Direct
 Grants awarded to the Wyoming Commission for National and Community Service (Commission).

 For the grants in Program Years 2001-2002, 2002-2003 and 2003-2004, the Commission claimed
 costs of $638,162, of which the auditors questioned $216,868 as unallowable and unsupported, and
 $14,478 of education awards. Overall, the auditors questioned approximately 34 percent of claimed
 costs. The auditors also noted instances of noncompliance with provisions of Federal laws,
 regulations and grant award provisions.

 The Commission was dissolved in 2004 and replaced by a nonprofit organization. Although former
 Commission officials disagreed with the auditor’s questioned match costs for television public service
 announcements, it generally agreed with the report’s remaining conclusions. The State has also
 launched an internal audit of the Northern Arapahoe Housing Development Organization, a
 commission subgrantee, and is attempting to collect documentation for the $128,252 in costs
 questioned for lack of support. These comments and any additional supporting documentation will be
 reviewed by the Corporation as part of the audit resolution process.


AmeriCorps Subgrantee Full-Scope Audit
 Audit Report 05-22 - Agreed-Upon Procedures Review of Corporation for National and
 Community Service Grant Awarded to Haddock AmeriCorps Cadet Program by the Georgia
 Commission for Service and Volunteerism

 Cotton & Company LLP performed an agreed-upon procedures review of AmeriCorps Subgrant No.
 00ASFGA0112601 awarded to the Haddock AmeriCorps Cadet Program (Haddock) by the Georgia
 Commission for Service and Volunteerism (Commission).

 The Commission awarded a $134,886 subgrant to Haddock on August 30, 2000. The grant budget
 stipulated subgrantee matching of $93,635 and total program costs of $228,521. Haddock received
 $124,350 in Corporation funds from the Commission for Program Year 2000-2001, purportedly as
 reimbursement for incurred costs claimed in its Periodic Expense Reports. Of the $124,350 in
 Federal share costs claimed by Haddock, the auditors questioned $121,476. Costs questioned are
 those for which documentation shows that recorded costs were incurred in violation of laws,
 regulations or specific award conditions. The auditors also questioned $40,950 in education awards
 paid to Haddock members who did not meet award eligibility requirements.

 The Commission agreed with the findings resulting from this review. Haddock program officials were
 unresponsive to the OIG’s draft report. The Commission intends to seek a resolution of this matter
 directly with Haddock officials.




 April 1, 2005 – September 30, 2005                                                             15
Audit Section


AmeriCorps National Direct Grantee Full-Scope Audits
 Audit Report 05-19 - Audit of Corporation for National and Community Service Grants
 Awarded to the Notre Dame Mission Volunteer Program Through the Maryland Governor’s
 Office on Service and Volunteerism

 Cotton & Company LLP performed an incurred-cost audit of grants awarded to the Notre Dame
 Mission Volunteer Program (NDMV) through the Maryland Governor’s Office on Service and
 Volunteerism.

 For the grants audited in Program Years 2001-2002 and 2002-2003, NDMV claimed costs of
 $599,795, of which the auditors questioned $8,228 as unallowable and $49,613 of education awards.
 Overall, the auditors questioned approximately 1 percent of claimed costs.

 Although NDMV officials stated that the Summary of Results is an unfair presentation, arguing the
 report does not reflect NDMV’s consistent effort to comply with AmeriCorps Provisions, they generally
 agreed with the remaining conclusions and have addressed many of the identified weaknesses.
 Their comments and NDMV’s corrective actions will be reviewed by the Corporation as part of the
 audit resolution process.

 Audit Report 05-20 - Audit of Corporation for National and Community Service Grants
 Awarded to the Notre Dame Mission Volunteer Program

 Cotton & Company LLP performed an incurred-cost audit of Corporation National Direct Grants
 awarded to the Notre Dame Mission Volunteer Program (NDMV).

 For the grants audited in Program Years 2001-2002, 2002-2003 and 2003-2004, NDMV claimed
 costs of $4,994,479, of which the auditors questioned $44,389 as unallowable and $55,338 of
 education awards. Overall, the auditors questioned approximately 1 percent of claimed costs.

 Although NDMV disagreed with the auditor’s recommendation to refund project income on its Promise
 Fellows grant, it generally agreed with the remaining auditors’ conclusions and it has addressed many
 of the identified weaknesses. These comments and NDMV’s corrective actions will be reviewed by
 the Corporation as part of the audit resolution process.


Audit Resolution
 The Corporation's audit resolution process under Corporation Policy Number 101, Audit Resolution,
 consists of six steps that culminate in a Management Decision (MD) and completion of a Notice of
 Final Action on any corrective measures that management deems appropriate.

 Step 1: The OIG issues a draft report. Within 30 days, the OIG issues a final audit report after
 considering any comments received from the Corporation and the auditee.

 Step 2: Within six months of the OIG’s issuance of a final audit report, the Corporation issues a
 Proposed Management Decision (PMD), responding to the report's findings and recommendations.
 The PMD explains any corrective actions and provides a timetable for implementation. It also
 explains whether management disagrees with any of the report's findings and recommendations.

 Step 3: Within 30 days of receiving the PMD, the OIG may provide written comments and may
 initiate additional discussions with Corporation management if the OIG does not concur with the
 PMD.


 16                                                        April 1, 2005 – September 30, 2005
                                                                              Audit Section

 Step 4: After reviewing any OIG comments, the Chief Financial Officer (CFO) issues a Management
 Decision (MD).

 Step 5: When all corrective actions in the MD have been completed, the Corporation issues a Notice
 of Final Action. A Notice of Final Action must be issued within 12 months of the date the audit report
 was issued.

 Step 6: Audits for which Final Action was not completed within 12 months of issuance are included in
 the OIG’s semiannual report. The Corporation then provides comments on the status of these
 incomplete actions and forwards this information to Congress.


Proposed Management Decisions
 A proposed management decision is a Corporation report that responds to an OIG audit’s findings
 and recommendations, and outlines a plan for corrective action. During this reporting period, the
 Corporation notified the OIG of the following proposed management decisions:

     •   Audit Report 04-22, Audit of Corporation for National and Community Service Grants
         Awarded to the Rhode Island Service Alliance

     •   Audit Report 05-04, Audit of Corporation for National and Community Service Grants
         Awarded to the Colorado Governor’s Commission on Community Service

     •   Audit Report 05-06, Agreed-Upon Procedures to the United Planning Organization

     •   Audit Report 05-08, Audit of Corporation for National and Community Service Grants
         Awarded to the Vermont Commission on National and Community Service

     •   Audit Report 05-12, Audit of Corporation for National and Community Service Grants
         Awarded to the Educational Service District (ESD) 112

     •   Audit Report 05-15, Audit of Corporation for National and Community Service Grants
         Awarded to the Nebraska Volunteer Service Commission

     •   Audit Report 05-16, Audit of the Corporation for National and Community Service Grant
         Awarded to the National Association of Community Health Centers


Notices of Final Action
 A Notice of Final Action is a Corporation management report indicating that it has completed
 corrective actions. During this reporting period, the OIG received the following Notices of Final
 Action:

     •   Audit Report 04-07, Pre-Audit Survey of the Louisiana Serve Commission

     •   Audit Report 04-13, Audit of Corporation for National and Community Service’s Gift Fund

     •   Audit Report 04-14, Audit of Grants Awarded to the South Carolina Commission on National
         and Community Service

     •   Audit Report 04-21, Pre-Audit Survey of the North Dakota State Commission on National and
         Community Service


 April 1, 2005 – September 30, 2005                                                             17
Audit Section

      •   Audit Report 04-22, Audit of Grants Awarded to the Rhode Island Service Alliance

      •   Audit Report 04-23, Audit of Costs Incurred under the Corporation’s Training and Technical
          Assistance Cooperative Agreement with America’s Service Commissions

      •   Audit Report 05-06, Agreed-Upon Procedures to the United Planning Organization

      •   Audit Report 05-08, Audit of Corporation for National and Community Service Grants
          Awarded to the Vermont Commission on National and Community Service




 18                                                        April 1, 2005 – September 30, 2005
                                                                      Audit Section

                                  Audit Reports Issued

                           April 1, 2005 - September 30, 2005
 Report      Issue                                                   Dollars            Dollars
 Number       Date                    Report Name                   Questioned       Unsupported
                                                                       (Dollars in thousands)
  05-10     5/19/05   Audit of Corporation for National and                 $79               $0
                      Community Servic Grants Awarded to the
                      Nevada Commission for National and
                      Community Service

  05-15     4/11/05   Audit of Corporation for National and                  62                1
                      Community Service Grants Awarded to the
                      Nebraska Volunteer Service Commission

  05-17      7/7/05   Audit of Corporation for National and                 427                3
                      Community Service Grants Awarded to the
                      Louisiana Serve Commission

  05-18      9/2/05   Agreed-Upon Procedures of Corporation for             217              167
                      National and Community Service Grants
                      Awarded to the Wyoming Commission for
                      National and Community Service

  05-19     8/12/05   Audit of Corporation for National and                   8                0
                      Community Service Grants Awarded to the
                      Notre Dame Mission Volunteer Program
                      Through the Maryland Governor's Office on
                      Service and Volunteerism
  05-20      8/2/05   Audit of Corporation for National and                  44                5
                      Community Service Grants Awarded to the
                      Notre Dame Mission Volunteer Program

  05-21     7/11/05   Audit of Corporation for National and                  82                1
                      Community Service Grants Awarded to the
                      Iowa Volunteer Service Commission

  05-22     7/14/05   Agreed-Upon Procedures of Corporation for             121               37
                      National and Community Service Grant
                      Awarded to the Haddock AmeriCorporps
                      Cadet Program by the Georgia Commission
                      for Service and Volunteerism
  05-24     9/22/05   Audit of Corporation for National and                1,041             181
                      Community Service Grants Awarded to the
                      California Governor's Office on Service and
                      Volunteerism (GO SERV)

                      TOTAL                                              $2,081             $395




April 1, 2005 – September 30, 2005                                                    19
                                     Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste, and abuse in Corporation for National and
                   Community Service programs and operations. The
                   Investigations Section carries out these responsibilities
                   by investigating allegations of criminal activities
                   involving the Corporation’s employees, contractors, and
                   grant recipients. Criminal investigations are presented
                   to the U.S. Attorney or, in some cases, the local
                   prosecutor for criminal prosecution and monetary
                   recovery. Some investigative reports are referred to
                   Corporation management for its administrative action or
                   information.




April 1, 2005 – September 30, 2005                                     21
                                                               Investigations Section


Summary of Cases
 At the beginning of this reporting period, 33 investigative actions were pending in the OIG
 Investigations Section. During this reporting period, OIG investigators opened 34 investigative
 actions and closed 30 investigations. Thirty-seven investigative actions were pending at the end of
 the period.

 Cases Closed This Period
 Embezzlement of AmeriCorps Funds (OIG Report of Investigation 03-009)

 Corporation management reported that a former program director and his wife, the program’s former
 administrative assistant, embezzled AmeriCorps funds. Evidence showed that the former director
 embezzled a significant amount of program funds. Evidence also showed that the former director
 utilized AmeriCorps members to perform services outside the scope of the grant at his private
 businesses and organizations. AmeriCorps members also improperly received credit toward their
 education awards for this service. After 10 months of reviewing this case for criminal prosecution, the
 U.S. Department of Justice declined prosecution, citing that it did not seem worthwhile to devote the
 resources necessary to present an indictment because there was a fairly strong potential for trial. It
 recommended civil recovery. The department’s Civil Section also declined, after spending five
 additional months of reviewing this case, citing that the cost to recover the loss of more than $40,000
 in Federal funds was not justified. Based on the information developed by the OIG and presented to
 the Corporation, management debarred the two former program officials from participating in Federal
 contracts and grants for a period of 24 months. In addition, the OIG Audit Section conducted a
 review of the grantee’s expenditures and identified questioned program costs. The results of this
 investigation were reported to Corporation management for administrative recovery.

 Fraudulent Receipt of Education Award (OIG Report of Investigation 04-009)

 Corporation management reported allegations that a former AmeriCorps member obtained and
 misused his education award by using fraudulent documentation. The investigation determined that
 the member prepared a fraudulent document that allowed him to use his education award to
 purchase an automobile. The U.S. Department of Justice accepted this investigation and pursued
 criminal prosecution. The individual was found guilty of theft and sentenced to one year of
 confinement, one year of supervised probation, ordered to make restitution in the amount of
 $2,362.50, and assessed $25 in court fees. Based on the information developed by the OIG and
 presented to the Corporation, management debarred the former member from participating in Federal
 contracts and grants for a period of 12 months.

 Fraudulent Receipt of Education Award (OIG Report of Investigation 04-035)

 Corporation management reported allegations that a former AmeriCorps member obtained an
 education award by using fraudulent documentation. The investigation determined that the member
 prepared a fraudulent voucher that allowed her to use her education award to pay off an automobile
 loan and receive the cash balance from her bank for personal use. Additionally, the member
 attempted to use a second education award to make payments on her delinquent mortgage. A
 Corporation employee questioned the authority of the second award document, contacted the former
 member’s financial institution, and discovered that a bank loan officer had certified the education
 award voucher so that the former member could pay her delinquent mortgage payments with the
 funds. The U.S. Department of Justice accepted this investigation and pursued criminal prosecution.
 The individual was found guilty of theft and sentenced to three years of supervised probation, ordered
 to make restitution in the amount of $4,725, and assessed $50 in court fees. Based on the
 information developed by the OIG and presented to the Corporation, management debarred the
 former member from participating in Federal contracts and grants for a period of 12 months.


 April 1, 2005 – September 30, 2005                                                              23
Investigations Section

 Release of Procurement Information / Ethics Violation (OIG Report of Investigation 05-011)

 Information developed under OIG Report of Investigation 05-010 (see below) revealed that a
 Corporation employee released protected procurement information to a contactor conducting
 business with the Corporation. Additionally, the employee violated the Corporation’s Ethics Policy by
 seeking employment with the same contractor. Based on the results of the OIG investigation, the
 employee resigned prior to administrative action by Corporation management. This matter was
 reported to the U.S. Office of Government Ethics. The U.S. Department of Justice declined
 prosecution, citing that there was no apparent loss to the Government and the fact that the employee
 had already resigned from Federal employment.

 Personal Use of a Government Travel Charge Card / False Statements
 (OIG Report of Investigation 04-029)

 Corporation management reported that a Corporation employee misused her Government Travel
 Charge Card. The investigation disclosed evidence that the employee misused her card to obtain
 cash advances and services that she was not authorized to receive. The employee also violated
 Corporation policy by failing to make payments on her account, resulting in a delinquency. In
 addition, the employee rendered two false statements under oath to OIG investigators in connection
 with the unauthorized Travel Charge Card use. Eight months after accepting this matter for criminal
 prosecution, the U.S. Department of Justice declined prosecution, citing the low dollar loss of
 approximately $6,000 did not meet its prosecution threshold. Corporation management took
 administrative action by suspending the employee for a period of 12 days.

 Conflict of Interest (OIG Report of Investigation 05-006)

 Based on information developed during a separate investigation, the OIG found evidence that a
 Corporation employee continued working with a grantee, an organization with which she was affiliated
 prior to her employment with the Corporation, creating the appearance of favoritism. The results of
 the investigation were presented to Corporation management. The employee received a letter of
 reprimand and attended additional ethics training.

 Workers Compensation Program Review (OIG Report of Investigation 05-018)

 A review was conducted of the Corporation’s Workers Compensation Program to detect possible
 fraud, waste, or abuse. The review of open compensation claims found no evidence or indicators of
 fraud that would warrant additional investigation.

 Communicating a Threat (OIG Report of Investigation 05-020)

 Corporation management reported an allegation that a Corporation employee had made verbal
 threats to her co-worker. The investigation disclosed evidence that the employee communicated a
 threat when she threatened to shoot another employee. The Department of Justice declined
 prosecution in lieu of administrative action. Based on the results of this investigation, Corporation
 management terminated the employee.

 Theft of Federal Education Award Funds (OIG Report of Investigation 05-022)

 Corporation management reported that an unknown person(s) stole a U.S Government education
 award Treasury check that had been mailed to an educational institution. Investigation disclosed that
 the check was mistakenly received and cashed by an institution with a similar name. Based on the
 results of the investigation, Corporation management administratively recouped the funds.




 24                                                        April 1, 2005 – September 30, 2005
                                                                 Investigations Section

Network Database Access Controls and Oversight (OIG Report of Investigation 05-027)

A review was conducted of the Corporation’s network database access controls and oversight. The
OIG found that, although the Corporation’s Office of Information Technology had a system in place to
identify personnel who were leaving the Corporation and to terminate the employee’s e-mail, intranet,
and web-based applications, it had no system in place to report when employees left the Corporation
so that their access to the Corporation’s Web-Based Reporting System could be terminated. The
Corporation’s Web-Based Reporting System contains personal and/or fiscal data on its members and
grantees. Based on the results of the OIG review, Corporation management took immediate action to
resolve the issue.

Personal Use of a Government Travel Charge Card (OIG Report of Investigation 05-045)

Corporation management reported an allegation that a Corporation employee misused his
Government Travel Charge Card. The investigation disclosed evidence that the employee misused
his card to obtain cash advances and services that he was not authorized to receive. The employee
also violated Corporation policy by failing to make payments on his account, resulting in a
delinquency. This matter was referred to the U.S. Department of Justice which declined prosecution
in lieu of administrative action by the Corporation, citing the low dollar loss of $629.41 did not meet its
prosecution threshold. Based on the results of the OIG investigation, Corporation management did
not renew the employee’s term of employment.

Misuse of Position (OIG Report of Investigation 05-050)

An allegation was reported via the OIG Hotline that a Corporation employee misused her position
when she attempted to influence a State Representative to convince a grantee to relinquish its grant.
The investigation found no evidence to substantiate the allegation.

False Statements – Travel Card Application (OIG Report of Investigation 05-056)

Corporation management reported that, during in-processing, a Corporation employee submitted a
Social Security Number and date of birth on his Government Travel Charge Card application that did
not belong to him. The investigation disclosed evidence that the employee entered his spouse’s
Social Security Number and date of birth in an attempt to hide the fact that he had misused his
Government Travel Charge Card at his former agency, and had an outstanding balance. Based on
the results of the OIG investigation, the employee resigned prior to administrative action by
management.


Cases Open at End of Period
False Statements / Theft (OIG Report of Investigation 05-048)

The OIG is investigating an allegation that a former AmeriCorps member, who later served as the
program director, failed to disclose on his application that he had a criminal conviction. The
investigation found evidence that the individual was allowed to serve in a school tutoring program
after he omitted his previous name and falsified his personal information forms by claiming that he
had never been convicted of a criminal offense. The investigation disclosed that the individual was a
habitual sexual offender and had legally changed his name after being released from prison. This
deception, if known, would have disqualified him from serving with children as a member or program
director. This deception also allowed the individual to fraudulently receive more than $48,000 in
Federal program funds to which he was not entitled. The U.S. Department of Justice has accepted
this investigation and is pursuing criminal prosecution. The investigation is ongoing and final results
will be reported in a subsequent semiannual report.


April 1, 2005 – September 30, 2005                                                                 25
Investigations Section

 Collusive Bidding (OIG Report of Investigation 05-010)

 Corporation management reported that a government contractor had engaged in collusive bidding.
 Investigation disclosed evidence that the government contractor engaged in collusive bidding when
 she conspired with another government contractor, a firm partly owned by her father and another
 individual. The contractor submitted bids and represented both firms regarding contracts for
 AmeriCorps training. Further investigation disclosed evidence that the contractor’s father is a
 government employee with another Federal agency. The other individual is an active duty U.S. Army
 service member. Management has temporarily suspended all three individuals from contracting with
 the Corporation. This investigation was coordinated with the Federal Bureau of Investigation, which
 declined jurisdiction. The Treasury Inspector General for Tax Administration has initiated a joint
 investigation with our agency. This matter has been referred to the U.S. Department of Justice for a
 prosecutorial decision. The investigation is ongoing and final results will be reported in a subsequent
 semiannual report.

 Theft of Program Funds (OIG Report of Investigation 05-030)

 Corporation management reported that a former VISTA member was employed during his VISTA
 service. The investigation found evidence that the VISTA member intentionally deceived program
 officials by claiming that he was volunteering at a local school when, in fact, he was employed at the
 school as a teacher. This allowed the VISTA member to receive more than $20,000 in Federal
 program funds, including his VISTA stipend, to which he was not entitled. The U.S. Department of
 Justice accepted this investigation and is pursuing civil prosecution. The final results will be reported
 in a subsequent semiannual report.

 Theft of Program Funds (OIG Report of Investigation 05-007)

 A State commission reported an allegation to Corporation management that an AmeriCorps grant
 recipient had misapplied Corporation program funds. The investigation found evidence that the
 AmeriCorps program’s director conspired with her cousin to defraud the U.S. Government when they
 prepared and submitted a fraudulent rental agreement in order to divert Corporation funds to cover
 the grantee’s share of program operating costs. The U.S. Department of Justice has accepted this
 investigation and is pursuing civil prosecution. The investigation is ongoing and final results will be
 reported in a subsequent semiannual report.

 Personal Use of a Government Travel Charge Card (OIG Report of Investigation 05-008)

 Corporation management reported that a Corporation employee had misused her Government Travel
 Charge Card. The investigation disclosed evidence that the employee misused her card to obtain
 cash advances and services that she was not authorized to receive. The employee also violated
 Corporation policy by failing to make payments on her account, resulting in a delinquency. Based on
 the results of the OIG investigation, the employee resigned prior to administrative action by
 management. The U.S. Department of Justice has accepted this investigation and is pursuing
 prosecution. The final results will be reported in a subsequent semiannual report.

 Theft of VISTA Checks (OIG Report of Investigation 04-017)

 Corporation management reported that an unknown person intercepted, forged and cashed two
 AmeriCorps*VISTA stipend checks from the U.S. Postal Service. The investigation disclosed that a
 postal employee cashed both checks. The OIG contacted the local U.S. Postal Inspection Service for
 assistance. Based on the information developed by the OIG, the U.S. Postal Inspection Service
 identified a postal employee as a suspect and also identified additional non-Corporation checks that
 had been similarly diverted. The investigation is ongoing and final results will be reported in a
 subsequent semiannual report.



 26                                                          April 1, 2005 – September 30, 2005
                                                              Investigations Section

Fraudulent Receipt of Education Awards (OIG Report of Investigation 04-039)

A State commission reported allegations that a program coordinator, with the approval of the program
director, fraudulently enrolled staff employees in the AmeriCorps program, falsified their service
hours, and qualified them for education awards. The investigation confirmed the allegations and
disclosed that several of the employees had received and used their education awards. Furthermore,
the OIG discovered evidence that the program coordinator also inflated other AmeriCorps members’
service hours to allow them to earn education awards. This matter was referred to the U.S.
Department of Justice on December 16, 2004, for a prosecutorial decision. The final results will be
reported in a subsequent semiannual report.

Alleged Hatch Act Violation (OIG Report of Investigation 04-041)

A Corporation employee reported that two Corporation managers may have violated the Hatch Act (5
U.S.C. § 7321-26) when they sent e-mails to other Corporation employees regarding a fundraising
event in Washington, DC, to support the re-election of a State senator. The OIG coordinated this
matter with the Corporation’s Office of General Counsel, which reported that both employees sent
retractions to their e-mails. This matter was reported to the U.S. Office of Special Counsel for
investigation. Its investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Theft of Government Services (Calling Card) (OIG Report of Investigation 04-034)

A Corporation employee reported an allegation that unknown persons were misusing a government-
issued calling card. The investigation disclosed evidence that a former AmeriCorps member had
obtained the calling card number during her term of service. After leaving the AmeriCorps program,
the former member continued to utilize the calling card number to make personal telephone calls.
Additionally, the member failed to safeguard the number, which was subsequently used by
unauthorized personnel at various locations throughout the United States. The U.S. Department of
Justice accepted this investigation and is pursuing criminal prosecution. The investigation is ongoing
and final results will be reported in a subsequent semiannual report.

False Claims Violation (OIG Report of Investigation 01-095)

Corporation management reported that an AmeriCorps grant recipient used Corporation funds for
purposes other than support of the grant. The recipient is alleged to have knowingly withdrawn
Corporation grant funds in excess of support needs in order to keep his program operating. The U.S.
Department of Justice initially accepted this case for criminal prosecution on November 26, 2001. On
February 28, 2002, the matter was transferred to its Civil Section for civil recovery under the False
Claims Act. The final results will be reported in a subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 01-005)

The OIG investigated an allegation that a Senior Corps grantee used Corporation funds for purposes
other than support of the grant. The grantee acknowledged receiving more than $300,000 in
Corporation program funds, which it used for purposes other than support of the grant. The U.S.
Department of Justice initially accepted this case for criminal prosecution on November 26, 2001. On
September 4, 2002, the matter was transferred to its Civil Section for civil recovery under the False
Claims Act. The final results will be reported in a subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 02-007)

A State commission reported an allegation that a program executive director and a chief financial
officer misapplied program funds for their personal use. The investigation found evidence supporting



April 1, 2005 – September 30, 2005                                                             27
Investigations Section

 this allegation. Initially, the Federal Bureau of Investigation was the lead investigative agency but,
 due to other commitments, was unable to pursue this matter fully. The U.S. Department of Justice
 has declined to prosecute this matter in favor of local prosecution. The local prosecutor has accepted
 this matter for criminal prosecution. The final results will be reported in a subsequent semiannual
 report.

 Theft of Program Funds (OIG Report of Investigation 02-028)

 Corporation management reported that the executive director of a grant recipient was diverting
 Corporation program funds to cover personal expenditures and business expenses that were
 unrelated to program operations. The investigation found evidence that the executive director and
 her spouse had diverted a significant amount of Corporation funds. The U.S. Department of Justice
 has accepted this investigation and is pursuing criminal prosecution. The final results will be reported
 in a subsequent semiannual report.

 VISTA Stipend Checks Theft (OIG Report of Investigation 03-016)

 Corporation management reported that an unknown person intercepted, forged, and cashed the
 AmeriCorps*VISTA stipend checks of a former VISTA member over a six-month period. A suspect
 was identified and the information was provided to the Federal Bureau of Investigation, which has
 assumed responsibility as the lead investigative agency. The U.S. Department of Justice accepted
 this investigation and is pursuing criminal prosecution. The investigation is ongoing and final results
 will be reported in a subsequent semiannual report.

 Fraudulent Receipt of VISTA Stipend (OIG Report of Investigation 03-040)

 A Corporation State Office employee reported that an AmeriCorps*VISTA member left the program
 but continued to receive her stipend, allowing her to collect a significant amount of Corporation funds
 to which she was not entitled. The investigation found that the former member’s program failed to
 verify member attendance and also failed to provide written documentation of member attendance in
 its biweekly reports. The U.S. Department of Justice has accepted this investigation and is pursuing
 criminal prosecution. The final results will be reported in a subsequent semiannual report.

 Theft of Program Funds (OIG Report of Investigation 05-023)

 A State commission employee reported that a former AmeriCorps grant recipient had informed her
 that, during a post-program audit, it was discovered that the grantee’s former program director had
 embezzled AmeriCorps program funds. A joint investigation has been initiated with the Federal
 Bureau of Investigation, which is serving as the lead investigative agency, and local law enforcement
 authorities. The U.S. Department of Justice accepted this investigation and is pursuing criminal
 prosecution. The investigation is ongoing and final results will be reported in a subsequent
 semiannual report.

 Theft of Program Funds (OIG Report of Investigation 04-042)

 Corporation management reported that a program director misapplied Corporation program funds.
 The investigation found evidence that the program director fraudulently charged personal
 expenditures to the Corporation’s grant. The U.S. Department of Justice accepted this investigation
 and pursued civil prosecution. The individual agreed to a plea agreement and paid $5,946.42 in
 restitution, interest, and civil penalties. Based on the information developed during its investigation,
 the OIG has forwarded a recommendation for debarment to the Corporation to preclude the former
 program director from participating in Federal contracts and grants for a period of time. The final
 results will be reported in a subsequent semiannual report.




 28                                                         April 1, 2005 – September 30, 2005
                                                               Investigations Section

Violation of Government’s Ethics Regulation (OIG Report of Investigation 05-036)

The OIG received an anonymous report that a Corporation employee had received and personally
benefited from hotel program awards points he received for arranging Corporation-funded training
events. The OIG found evidence that several Corporation employees used their official government
positions to receive hotel program awards points to which they were not entitled, and which they used
for personal gain. The U.S. Department of Justice declined prosecution in lieu of administrative
action, citing that there was no dollar loss to the government. The results of the investigation will be
provided to Corporation management for appropriate action. The final results will be reported in a
subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 05-041)

An allegation was reported to the OIG Hotline that a VISTA Project Director enrolled her employees in
the VISTA program to supplement the employees’ salaries and benefits. The investigation found
evidence that the project director conspired with her husband to fraudulently enroll their private
business employees in the VISTA program to supplement their salaries and benefits with Federal
program funds. The U.S. Department of Justice has accepted this investigation and is pursuing
criminal prosecution. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Child Care Fraud (OIG Report of Investigation 05-047)

A Corporation grant recipient reported that a former AmeriCorps member had fraudulently received
AmeriCorps*Care child care benefits. The investigation found evidence that, after the member
enrolled in the AmeriCorps*Care child care program, the member also enrolled in her State’s child
care subsidy program. This allowed the former member to receive thousands of dollars in
AmeriCorps*Care benefits to which she was not entitled. This matter has been referred to the U.S.
Department of Justice for a prosecutorial decision. The final results will be reported in a subsequent
semiannual report.

Allegation of Education Award Fraud (OIG Report of Investigation 05-049)

An OIG program review disclosed that an AmeriCorps grant recipient had falsified its members'
education award certifications. The investigation found evidence that the members’ time sheets
contained unauthorized service hours and did not match the total hours certified by program officials
to the Corporation to establish the members’ education award eligibility. The investigation is ongoing
and final results will be reported in a subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 05-054)

Corporation management reported an allegation that a grant recipient had misapplied Corporation
program funds. The investigation found evidence that the grantee’s executive director diverted
Corporation funds to cover non-grant expenditures and operating costs. The U.S. Department of
Justice has accepted this investigation and is pursuing civil prosecution. The investigation is ongoing
and final results will be reported in a subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 05-055)

Corporation management reported that a program director misapplied Corporation program funds.
The investigation found evidence that the program director fraudulently used the grantee’s charge
card for her personal use and charged the costs to the Corporation’s grant. The U.S. Department of
Justice has declined to prosecute this matter in favor of local prosecution. The local prosecutor has
accepted this matter for criminal prosecution. The final results will be reported in a subsequent
semiannual report.


April 1, 2005 – September 30, 2005                                                               29
Investigations Section

 Trust Internal Controls (OIG Report of Investigation 05-028)

 A limited scope review was conducted of the Corporation’s controls and verification process for
 payments to non-education institutions (banks and other commercial lenders) receiving education
 award payments. The OIG found that the Corporation does not have a Standard Operating
 Procedure in place for outlining the verification process for payments to non-education institution loan
 holders.

 The OIG also discovered that delinquent education award accounts were not being processed in
 accordance with Corporation policy. A review of the National Service Trust Fund Negative Award
 Balance Report showed the Corporation had outstanding balances dating as far back as 1995. The
 results of the review were provided to Corporation management. The final results will be reported in
 a subsequent semiannual report.




 30                                                         April 1, 2005 – September 30, 2005
                                                              Investigations Section

                                   Summary Of Cases
  Opened and Closed
  Cases Open at Beginning of Reporting Period                                            33

  New Cases Opened                                                                       34

  Cases Closed this Period With Significant Findings                                     11

  Cases Closed this Period With No Significant Findings                                  19

  Total Cases Closed                                                                     30

  Cases Open at End of Reporting Period                                                  37

  Referred
  Cases Referred for Prosecution                                                         12

  Cases Accepted for Prosecution                                                         10*

  Cases Declined for Prosecution                                                         7*

  Cases Pending Prosecutorial Review                                                     2

  Cases Pending Adjudication                                                             17*

  Recommendations to Management
  Investigative Recommendations Referred to Management                                   16

  Investigative Recommendations Pending this Reporting Period                            4

  Investigative Recommendations Pending from Previous Reporting Periods                  0

  * This includes cases referred for prosecution during the previous reporting period.




April 1, 2005 – September 30, 2005                                                            31
                              Review of Legislation and
                                           Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The Office of Inspector
                   General reviews legislation and regulations to determine
                   their impact on the economy and efficiency of the
                   Corporation’s administration of its programs and
                   operations.        It   also    reviews    and    makes
                   recommendations on the impact that legislation and
                   regulations may have on efforts to prevent and detect
                   fraud and abuse in Corporation programs and
                   operations. The Office of Inspector General draws on
                   its experience in audits and investigations as the basis
                   for its recommendations.




April 1, 2005 – September 30, 2005                                     33
                                 Review Of Legislation And Regulations


AmeriCorps Program Rules Finalized
 On July 8, 2005, the Corporation published as final in the Federal Register its amendments to the
 regulations governing the AmeriCorps program. The amendments clarify the grant selection process,
 authorize AmeriCorps participants to recruit and to raise funds from non-Federal sources, and set a
 maximum childcare subsidy payment. Through implementation of sustainability criteria for grant
 selection and renewal, the amendments also attempt to maximize the impact of Federal funds by
 requiring grant recipients to obtain additional non-Federal matching funds. The OIG reviewed the
 amendments and found that they are consistent with the National Community Service Trust Act and
 will have no adverse effect on the Corporation’s ability to prevent fraud and abuse. The amendments
 also have the potential for more economic and efficient use of Federal funds in that they require
 AmeriCorps program grantees to obtain additional non-Federal matching funds.


Program Fraud Civil Remedies Act
 In the last reporting period, the OIG recommended to the Corporation that it promulgate regulations to
 implement the Program Fraud Civil Remedies Act (PFCRA). The Act, enacted in 1986, provides
 agencies with an administrative means to recoup low-dollar amount frauds of Federal funds that were
 unlawfully obtained by persons through false claims or false statements. The Corporation had
 indicated to the OIG in the prior reporting period that it was studying its responsibilities under the Act.
 On May 16, 2005, the Corporation formally indicated in the Federal Register its intent to publish rules
 implementing PFCRA in the upcoming year. In August, the Corporation circulated, for internal
 comment, a draft of the PFCRA regulation that is substantially similar to rules previously issued by
 other Federal agencies. The OIG reviewed the draft and recommended certain revisions, several of
 which were adopted. The OIG will continue to monitor the Corporation’s actions in promulgating
 PFCRA rules and report its progress in a subsequent semiannual report.




 April 1, 2005 – September 30, 2005                                                                 35
                                             Statistical and
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




April 1, 2005 – September 30, 2005                                  37
                                                                                            Tables


I.          Inspector General Act Reporting Requirements
     This table cross-references the reporting requirements prescribed by the Inspector General Act of
     1978, as amended, to the specific pages in the report where they are addressed.

         Section                               Requirement                                 Page
          4 (a)(2)     Review of legislation and regulations                                33

          5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                       administration of Corporation programs and operations

          5 (a)(2)     Recommendations with respect to significant problems, abuses      Throughout
                       and deficiencies found in the administration of Corporation
                       programs and operations

          5 (a)(3)     Prior significant recommendations on which corrective action         43
                       has not been completed

          5 (a)(4)     Matters referred to prosecutorial authorities                        31

          5 (a)(5)     Summary of instances where information was refused                None this
                                                                                          period

          5 (a)(6)     List of audit reports by subject matter showing dollar value of      19
                       questioned costs and recommendations that funds be put to
                       better use

          5 (a)(7)     Summary of significant reports                                    Throughout

          5 (a)(8)     Statistical table showing number of reports and dollar value of      40
                       questioned costs

          5 (a)(9)     Statistical table showing number of reports and dollar value of      41
                       recommendations that funds be put to better use

          5 (a)(10)    Summary of each audit issued before this reporting period for        42
                       which no management decision was made by end of reporting
                       period

          5 (a)(11)    Significant revised management decisions                          None this
                                                                                          period

          5 (a)(12)    Significant management decisions with which the Inspector         None this
                       General disagrees                                                  period




     April 1, 2005 – September 30, 2005                                                           39
Tables


II.          Reports With Questioned Costs


                                                                             Federal Costs

                   Report Category                     Number Questioned               Unsupported
                                                                             (Dollars in thousands)
      A. Reports for which no management decision          7                  $672                    $325 *
         had been made by the commencement of the
         reporting period

      B. Reports issued during the reporting period        9                 2,081                     396

      C. Total Reports (A + B)                             16                2,753                     721

      D. Reports for which a management decision           6
         was made during the reporting period

         I. Value of disallowed costs                                          243                      42

         II. Value of costs not disallowed                                     210                     106

      E. Reports for which no management decision          10               $2,300                    $573
         had been made by the end of the reporting
         period (C minus D)

      F. Reports with questioned costs for which no        2                  $280                    $179
         management decision was made within six
         months of issuance

      * The $1 difference between this beginning balance and the ending balance on the FY 2005
      Semiannual Report No.1 is due to rounding




  40                                                            April 1, 2005 – September 30, 2005
                                                                                          Tables


III.         Reports With Recommendations That Funds
             Be Put To Better Use

                     Report Category                   Number*       Dollar Value*
                                                                 (Dollars in thousands)
       A. Reports for which no management decision        0                  $0
          had been made by the commencement of
          the reporting period

       B. Reports issued during the reporting period      0                  $0

       C. Reports for which a management decision         0
          was made during the reporting period

          i. Value of recommendations agreed to by        0                  $0
          management

          ii. Value of recommendations not agreed to      0                  $0
          by management

       D. Reports for which no management decision        0                  $0
          had been made by the end of the reporting
          period

       E. Reports for which no management decision        0                  $0
          was made within six months of issuance




   *The Audit Section predominately performed cost-incurred and compliance audits that resulted in
   questioned costs and noncompliance findings. These types of audits typically do not lead to
   recommendations that funds be put to better use.




  April 1, 2005 – September 30, 2005                                                            41
Tables


IV.       Summary of Audits With Overdue Management Decisions


                                                    Federal           Mgmt.    Status as of
      Report                                        Dollars          Decision September 30,
      Number                 Title                 Questioned         Due*        2005
       05-09   Audit of Corporation Grants              $101          08/03/05       A Proposed
               Awarded to the Hawaii Commission                                     Management
               for National and Community                                          Decision has not
               Service                                                             been provided to
                                                                                       the OIG

       05-13   Audit of Corporation Grants               179          08/24/05       A Proposed
               Awarded to the Ohio Community                                        Management
               Service Council                                                     Decision has not
                                                                                   been provided to
                                                                                       the OIG



                              Total                     $280

   *Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
  management decision must be made within six months of the issuance of the final audit report and
  corrective actions must be completed within one year.




 42                                                       April 1, 2005 – September 30, 2005
                                                                                         Tables


V.        Reports Described in Prior Semiannual Reports
          Without Final Action

                                                                                   Final
     Report                                                        Date           Action
     Number                        Title                          Issued           Due*
      04-19   Pre-Audit Survey of Corporation for National        09/28/04        09/28/05
              and Community Service grants awarded to the
              New York State Office of National and
              Community Service



 *Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
 management decision must be made within six months of the issuance of the final report and
 corrective actions must be completed within one year.




 April 1, 2005 – September 30, 2005                                                             43
                                        Fiscal Year 2005
                                Performance Information
                   The section summarizes the Office of Inspector
                   General’s accomplishments and performance measures
                   in support of OIG strategic goals.




April 1, 2005 – September 30, 2005                              45
                                                         Performance Information

Strategic Goals
As part of the Office of Inspector General’s ongoing effort to carry out its mission, the OIG has
established the following goals:

Strategic Goal One:
Ensure that OIG activities support the Corporation’s mission by emphasizing critical programs and
operations of the Corporation.

Strategic Goal Two:
Communicate effectively with the Corporation Board of Directors and Corporation senior
management and staff, with Corporation grantees and subgrantees, with the public, with the
Congress, and with other parties as appropriate.

Strategic Goal Three:
Strengthen the OIG’s ability and readiness to have maximum impact on the most significant issues.

On the following pages, performance information is provided and linked with our strategic goals.




April 1, 2005 – September 30, 2005                                                             47
Audit Performance Information


            Quantitative Audit Performance Measures
                                                                  FISCAL YEAR
                                                                 2004     2005

 Number of reports issued                                         23        21


 Number of reports issued linked to improving                     6         3
 Corporation management (OIG Goal One)


 Number of recommendations linked to improving                    45        40
 Corporation management (OIG Goal One)


 Number of reports issued linked to protecting the                22        18
 integrity of Corporation programs, operations, and
 financial management (OIG Goal Two)


 Number of recommendations linked to protecting the
 integrity of Corporation programs, operations, and
 financial management (OIG Goal One)
                       to Corporation                             46        71
                       to Grantees                                93        71
                       to Contractors                              0        0


 Number of reports issued linked to carrying out the              1         0
 intent of the Government Performance and Results Act
 (GPRA) (OIG Goal One)


 Number of recommendations linked to carrying out the             15        0
 intent of the Government Performance and Results Act
 GPRA (OIG Goal One)


 Total number of audit recommendations                           139       169


 Percent of recommendations accepted by the Corporation          99%       99%




 48                                                       April 1, 2005 – September 30, 2005
                                              Audit Performance Information


                             Audit Performance Statistics

                                                                             Fiscal Year
                                                                    2003       2004         2005

  Number of audit reports*                                           19         23           21


  Number of testimonies                                               1          0            0


  Number of reports requested by Congress                            4           4            5


  Questioned costs (dollars in thousands)                         $3,585       $836        $1,292


  Value of recommendations that funds be put to                    $119         $0           $0
  better use (dollars in thousands)**


  Cost per audit hour
           OIG staff                                                $53        $58           $54
           Contracted services                                      $85        $83           $75


  Timeliness (average length of time to complete                  202 days   151 days      225 days
  an audit)*



*In accordance with Strategic Goal One, which is to improve the quality and delivery of OIG services,
reports, and other work products, the OIG monitors the number of audit reports issued annually and
the time required to complete each audit.

**The Audit Section predominately performed cost-incurred and compliance audits that resulted in
questioned costs and noncompliance findings. These types of audits typically do not lead to
recommendations that funds be put to better use.




April 1, 2005 – September 30, 2005                                                                49
Investigations Performance Information


                         Investigations Performance Information
              Fiscal Year             FY 2001       FY 2002       FY 2003      FY 2004       FY 2005
     Investigative actions opened            1        40            42           42            57
                                        95

     Investigative actions resolved      95            40            30           38              53
     and closed

     Average monthly caseload            35            24            26           28              37

     Investigative matters resolved      29            37            42           59              45
     without opening a separate
     investigative action

     Referrals for prosecution           16            10            9             8              20

     Investigative recoveries         $55,961     $1,206,057     $123,988      $36,952      $234,691

                    2                    $0            $0        $158,038       $5,106        $2,363
     Cost avoidance

     Administrative or management        8             25            23            8              24
     actions taken


 1
  Of the 95 investigative actions opened during FY 2001, 45 were opened as a direct result of a
 proactive OIG review of Corporation employees’ use of the Government Travel Charge Card.
 2
   Cost avoidance was not calculated until FY 2003. Cost avoidance includes those predictable costs
 that were not incurred due to OIG investigative intervention.




 50                                                         April 1, 2005 – September 30, 2005
